                                                                                               /
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

11   Case Number: I03110061/Closeout
                                                                              11          Page ,l of l



          The National Science Foundation (NSF) Office of Inspector General (OIG) selected this award as
          part of a review of conferences, workshops and symposia with respect to compliance with
          program income requirements. The award provided funds entirely for participant suppod of
          United States participation in a symposium.' The symposium website indicates that a
          registration fee was charged to participants and that the cognizant NSF Program Officer on the
          grant, was a keynote speaker at the symposium.

          NSFIOIG requested that the University provide us with financial information and supporting
          documentation for the award. The university did not earn any program income from the grant.
          The financial documents provided by the University revealed that the Program Officer did not
          receive any compensation for speaking at the symposium.

          Final Disposition:
          The NSF Program Officer did not receive compensation therefore, there do not appear to be any
          COI issues. The University did not earn any program income from the grant. Accordingly, this
          case is closed.




          ' Footnote Redacted
           Footnote Redacted



                                                                                                   I*
 NSF OIG Fom 2 (11/02)
